<html>
<title> - THE IMPACT OF CORONAVIRUS ON AMERICA'S SMALL BUSINESSES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


        THE IMPACT OF CORONAVIRUS ON AMERICA'S SMALL BUSINESSES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             MARCH 10, 2020

                               __________

 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-078
             Available via the GPO Webster: www.govinfo.gov
             
                               _________
                       

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-966                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                           
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                               WITNESSES

Dr. Jennifer Huang Bouey, Senior Policy Researcher, Tang Chair in 
  China Policy Studies, RAND Corporation, Arlington, VA..........     4
Mr. Jay M. Ellenby, President, Safe Harbors Business Travel, Bel 
  Air, MD, testifying on behalf of the American Society of Travel 
  Advisors (ASTA)................................................     6
Mr. Andrew Chau, Co-Founder & CEO, Boba Guys, Brisbane, CA.......     7
Dr. Yanzhong Huang, Senior Fellow for Global Health, Council on 
  Foreign Relations, Professor, Seton Hall University's School of 
  Diplomacy and International Relations, Washington, DC..........     9

                                APPENDIX

Prepared Statements:
    Dr. Jennifer Huang Bouey, Senior Policy Researcher, Tang 
      Chair in China Policy Studies, RAND Corporation, Arlington, 
      VA.........................................................    29
    Mr. Jay M. Ellenby, President, Safe Harbors Business Travel, 
      Bel Air, MD, testifying on behalf of the American Society 
      of Travel Advisors (ASTA)..................................    44
    Mr. Andrew Chau, Co-Founder & CEO, Boba Guys, Brisbane, CA...    62
    Dr. Yanzhong Huang, Senior Fellow for Global Health, Council 
      on Foreign Relations, Professor, Seton Hall University's 
      School of Diplomacy and International Relations, 
      Washington, DC.............................................    64
Questions and Responses for the Record:
    Questions from Hon. Troy Balderson to Mr. Jay M. Ellenby and 
      Responses from Mr. Jay M. Ellenby..........................    70
    Questions from Hon. Troy Balderson to Mr. Andrew Chau and 
      Responses from Mr. Andrew Chau.............................    75
    Questions from Hon. Troy Balderson to Dr. Yanzhong Huang and 
      Responses from Dr. Yanzhong Huang..........................    78
Additional Material for the Record:
    American Bus Association (ABA)...............................    80
    Chamber of Commerce of the United States of America..........    84
    Statement of J.D. O'Hara.....................................    86
    China Stopped Its Econony to Tacklet Coronavirus, Now the 
      World Suffer.-The New York times...........................    91

 
        THE IMPACT OF CORONAVIRUS ON AMERICA'S SMALL BUSINESSES

                              ----------                              


                        TUESDAY, MARCH 10, 2020

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:33 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Crow, Davids, Chu, Evans, Schneider, Espaillat, Delgado, 
Houlahan, Craig, Chabot, Balderson, Hern, Hagedorn, Burchett, 
Spano, Joyce, and Bishop.
    Chairwoman VELAZQUEZ. Good morning. The Committee will come 
to order.
    I want to thank everyone for joining us this morning, 
especially our witnesses for taking time to travel here to 
testify before the Committee. Not only has Coronavirus cost 
thousands of tragic deaths around the globe, this public health 
crisis also threatens the fabric of our economy, which is woven 
together by small businesses. Already, economists have lowered 
global forecasts with the dimmest outlooks predicting a fall 
from nearly 3 percent to just 1 percent growth due to the 
uncertainty and disruptions inflicted by the virus.
    Here in the U.S., because small businesses make up over 99 
percent of all employers, we can expect that many will face 
hardship from this public health crisis. From the local barber 
shop to the neighborhood cafe, to the innovative small tech 
firm, a pandemic can mean fewer customers, supply chain 
disruption, and workforce reductions.
    For the travel and tourism industries, both of which are 
significant small business job creators, the outbreak of 
coronavirus has been estimated as the worst crisis since 9/11.
    In addition to hurting big retailers, like airlines, small 
retail shops, independently owned restaurants, and creational 
services are also seeing severe drops in customers. For 
companies that rely on imports from companies in China, the 
epicenter of the outbreak, the virus has broken up supply 
chains, forcing small businesses to reconsider their options 
for filling orders and meeting sales.
    Additionally, while businesses around the country take 
stock of their operational plan during a public health 
emergency, small businesses may be unable to absorb cuts in the 
workforce, causing them to scale back operations, ultimately 
reducing revenue.
    As the coronavirus spreads, so, too, does misinformation 
and alarm. For many businesses, particularly Asian-owned firms, 
this can be equally damaging. Because of fear, misinformation, 
and xenophobia, many Chinatown restaurants and stores in my 
city of New York were already feeling economic pain before even 
one person in New York tested positive for the virus.
    Merchants in Chinatown have reported sales drops as high as 
80 percent. Many restaurants and retailers in Manhattan's 
Chinatown, Brooklyn's Sunset Park and Queens are already having 
to furlough staff and may have to let employees go.
    That is why I am proud that the Emergency Funding Bill, 
which included money for vaccines and testing, will also help 
small businesses access federal loans if they suffer losses 
related to the outbreak. This means that firms harmed by the 
virus could apply for emergency loans with extremely low 
interest rates to help them meet financial obligations.
    Just as the SBA helps local economies get back on their 
feet after a hurricane, wildfire, or earthquake, the agency can 
be critical to helping our small businesses recover from this 
public health crisis.
    In dealing with this public health issue, our number one 
goal is to contain the spread and ensure that those infected 
are treated and fully recover. One way to do that is to support 
paid sick leave. Having people go to work sick only increases 
the likelihood of transmission and further prolonging the 
decrease in demand for goods and services that small businesses 
provide.
    I look forward to hearing from our public health experts on 
the health challenges presented by the outbreak. However, we 
also understand that there will be an economic impact and that 
small firms will be among the hardest hit. I look forward to 
hearing your experiences and concerns. In my view, we should 
all be focused on preparedness, working together in a 
coordinated way, and providing accurate, reliable information 
to our small businesses and the American people. In the end, 
the stakes are too high, and the federal government cannot 
afford to get this wrong.
    I would now like to yield to the Ranking Member, Mr. 
Chabot, for his opening statement.
    Mr. CHABOT. Thank you, Madam Chair. And I appreciate you 
calling this hearing in for your early leadership on this 
issue.
    On January 30th, the World Health Organization declared 
COVID-19 a public health emergency of international concern. On 
January 31st, Health and Human Services Secretary Azar declared 
a public health emergency.
    Undoubtedly, this virus is having an immediate and tangible 
impact on our Nation. In recent weeks, it has become obvious 
that our economy is not immune to the effects of the virus. We 
must summon every available resource of the U.S. Government to 
overcome the impact of the coronavirus epidemic on the U.S. 
economy.
    Diseases do not know borders, and COVID-19 is no exception. 
Over the past few months, global leaders have been ramping up 
efforts to improve international information sharing and 
cooperation.
    Last week, the House Foreign Affairs Committee passed the 
Global Health Security Act, a bipartisan bill that I introduced 
along with Democratic congressman, Gerry Connolly of Virginia. 
This bill strengthens our commitment to leadership on global 
health security and puts in place necessary personnel and 
systems to respond to pandemics like the coronavirus.
    As the COVID-19 spreads in the United States, the entire 
public health service must be operating at maximum capacity to 
combat this threat.
    Since 2015, Congress has made strategic investments in 
public health resources. We increased the NIH, National 
Institutes of Health funding by 39 percent, and the Centers for 
Disease Control (CDC) funding by 24 percent.
    To minimize the impact of COVID-19, it is important to 
adhere to guidance provided by public health experts, whether 
it is from the CDC or our neighborhood healthcare 
professionals.
    Five days ago, Congress passed an emergency funding bill to 
support the administration's efforts in addressing COVID-19. 
That legislation included $20 million for economic injury, 
disaster loans (EIDLs) serviced by the SBA's Office of Disaster 
Assistance, which leads the Federal government's long-term 
economic recovery efforts.
    The SBA's Disaster Loan Program provides numerous direct 
loan options for disaster victims, including EIDLs, which 
provide working capital to small businesses affected by 
disasters to keep them afloat until they can resume normal 
operations.
    In this Committee, we will continue to consider any 
proposed assistance strategies to counter the negative economic 
impact of COVID-19 on America's small businesses.
    I want to thank all the witnesses for being here this 
morning. Thank you, Madam Chair, for holding this hearing.
    And I yield back my time.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. The gentleman 
yields back.
    If Committee members have an opening statement prepared, we 
would ask that they be submitted for the record.
    I would like to take a minute to explain the timing rules. 
Each witness gets 5 minutes to testify and each member get 5 
minutes for questioning. There is a lighting system to assist 
you. The green light will be on when you begin, and the yellow 
light will come on when you have 1 minute remaining. The red 
light comes on when you are out of time, and we ask that you 
stay within that timeframe to the best of your ability.
    I would now like to introduce our witnesses who have taken 
time away from their families and businesses to be here today 
for this important hearing.
    Our first witness is Dr. Jennifer Huang Bouey. Dr. Bouey is 
a senior policy researcher and Tang Chair in China Policy 
Studies at the RAND Corporation. As an epidemiologist with 
training in clinical medicine and quantitative methods, Dr. 
Bouey's research centers on Global Health Strategies and Social 
Detriments of Health. She received her M.P.H. and Ph.D. in 
Epidemiology from George Washington University and her MD from 
Peking University School of Medicine.
    Thank you for being here, Dr. Bouey.
    Our second witness is Mr. Jay M. Ellenby, the president of 
Safe Harbors Business Travel in Bel Air, Maryland. His passion 
for travel began when he explored the U.S. of America as a 
meteorologist. He has previously served as the Chairman of the 
American Society of Travel Advisors, Chairman of the Hartford 
County Chamber of Commerce, and Chairman of the Maryland 
Chamber of Commerce.
    Thank you for being here.
    Our third witness is Mr. Andrew Chau, co-founder and CEO of 
Boba Guys and Tea People USA. He has been featured as a top 
emerging business leader on CNN, New York Times, Wall Street 
Journal, Vogue, and NPR. Prior to a career in consumer products 
goods and corporate marketing, Mr. Chau started his first 
startup in 2011. He has undergraduate and graduate degrees from 
UC Berkeley.
    We appreciate you being here today.
    I would now like to yield to our Ranking Member, Mr. 
Chabot, to introduce our final witness.
    Mr. CHABOT. Thank you very much, Madam Chair. And our final 
witness here this morning will be Yanzhong Huang. Dr. Huang is 
a senior fellow for Global Health at the Council on Foreign 
Relations. He is also a professor and director of Global Health 
Studies at the Seton Hall University's School of Diplomacy and 
International Relations. He is the founding editor of Global 
Health Governance, the scholarly journal for the New Health 
Security Paradigm. He has published numerous reports, journal 
articles, op eds, and book chapters on global health 
governance, health diplomacy, and health security. He has also 
authored the book, Governing Health in Contemporary China, 
which was published back in 2014. Dr. Huang obtained his BA and 
MA degrees from Fudan University and his PH degree from the 
University of Chicago. He has been quite busy with speaking 
requests lately, as you can imagine, so we are grateful that he 
is able to be with us today.
    And I yield back.
    Chairwoman VELAZQUEZ. Thank you.
    I will now recognize Dr. Bouey for your opening statement.

 STATEMENTS OF JENNIFER HUANG BOUEY, SENIOR POLICY RESEARCHER, 
 TANG CHAIR IN CHINA POLICY STUDIES, RAND CORPORATION; JAY M. 
ELLENBY, PRESIDENT, SAFE HARBORS BUSINESS TRAVEL; ANDREW CHAU, 
 CO-FOUNDER AND CEO, BOBA GUYS; YANZHONG HUANG, SENIOR FELLOW 
  FOR GLOBAL HEALTH, COUNCIL ON FOREIGN RELATIONS, PROFESSOR, 
 SETON HALL UNIVERSITY'S SCHOOL OF DIPLOMACY AND INTERNATIONAL 
                           RELATIONS

               STATEMENT OF JENNIFER HUANG BOUEY

    Dr. BOUEY. Madam Chair Velazquez, Ranking Member Chabot, 
and members of the Committee, thank you for inviting me to 
testify today.
    We all know now that COVID-19 is a highly contagious 
disease that can cause 15 percent of the infected, severe 
clinical diseases and 1 to 2 percent of fatality. The first 
COVID-19 pneumonia cluster was reported from Wuhan, China in 
December, but in less than 3 months of time, the outbreaks are 
reported from over 100 countries on six continents. Without a 
vaccine and a proven treatment, the only public health 
interventions is social distancing. That is to keep the 
infected and the healthy separated and provide supportive 
medical care for the sick.
    China used unprecedented quarantine policies. Locked down 
cities, reduced the air, rail, and highway transportation. By 
January 29th, all 31 provinces in China have declared public 
health emergencies during the Chinese New Year.
    To this day, mandator 14-day quarantines for travelers are 
in effect in many cities in China. Outside China, more than 90 
countries announced various types of travel bans.
    How will this impact small and medium businesses? In China, 
foodservice, tourism, hospitality, entertainment and retail 
industries suffered most during the holiday season. Revenues 
lost in service sectors during the Chinese New York week are 
reported to be 142 billion USD, about 1 percent of the GDP. It 
also caused immense shock that is still lingering till today.
    The small and medium business in China accounts for 80 
percent of the employment in the country. As in most countries 
around the world, small and medium businesses are the engine of 
the economy. According to several Chinese surveys in February, 
about 2/3 of small businesses reported that they can only stay 
open for 1 to 2 months with their current cash flow.
    Most of the financial pressures are from paying the 
employees, paying the rent, and the loan repayment.
    The Central Government of China has launched several 
policies to help. The Central Bank has released 174 billion USD 
in February to ease the borrowing cost and the funds' 
availability. The interest rate was cut by a quarter percentage 
point to 2.5 percent. The State Council encouraged the private 
commercial banks to postpone interest payment on loans until 
the end of June and to defer the repayment of principal for the 
time-being.
    It also ordered the large state-owned banks to increase 
lending to small businesses at preferential rates.
    The local policy also helps. For example, Beijing 
Government announced exemptions on some rent payment for up to 
2 months, reducing tax and fees for small and medium 
businesses.
    However, until last week, only 30 percent of the small 
businesses in China reported reopened. The difficulties they 
face, including the public health requirement for requirement, 
the 14-day self-quarantine requirement for travelers and 
migrants, and a weak market demand fractured supply chain and 
cash flow problems.
    So what does it mean to U.S. business? The global supply 
chain can suffer from COVID-19. China has the world's major 
production of chemicals, metals, textiles, and electronics. And 
seven of the top busiest ports in the world are in China. We 
are expecting some degrees of supply chain, as well as the 
logistic chain interruptions. The recovery time depends on how 
fast China can reopen the factories and the COVID-19 pandemic 
affects the world economy.
    Although the U.S. economy is very different from that of 
China, I still think there are some lessons the U.S. can learn. 
I gave about a dozen recommendations in my written testimony on 
epidemic controls and assistance to SMEs. Here, I will only 
highlight three.
    The first one, the SMEs are a critical part of the economy, 
and financially, they are more fragile when the market demand 
is down. Government should focus on helping SMEs during the 
public health crisis by lowering interest rates, defer or waive 
tax and fees, and easing the lending policies.
    Second, the health equity issues should be factored into 
the COVID-19 policies. Having support in childcare, paid sick 
leave, and health insurance will help promote the safe 
behaviors during the epidemic. That is someone who has the mild 
symptoms or taking care of sick family members can stay at home 
and obtain proper medical care. This will help separate the 
infected from the healthy and reduce the disease transmission 
opportunities. The lack of social support can prolong the 
disease transmission, and in the long-term can harm the market 
demands.
    And finally, the U.S. government can consider setting aside 
additional funding for unemployment insurance payments to help 
SMEs avoid bankruptcy or help the creditors of the bankrupt 
SMEs.
    And with that, I will conclude my summary. Thank you for 
your time.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Ellenby, now you are recognized.

                  STATEMENT OF JAY M. ELLENBY

    Mr. ELLENBY. Good morning, Chairwoman Velazquez, Ranking 
Member Chabot, and distinguished members of the Committee.
    My name is Jay Ellenby, and I am president of Safe Harbors 
Business Travel. I am also a veteran of the United States Navy.
    Since 1985, Safe Harbors has served a diverse range of 
client companies, organizations, and individuals throughout the 
world. I am also here on behalf of the America Society of 
Travel Advisors (ASTA), the national trade association for the 
travel agency industry.
    Travel agencies are responsible for the sale of the 
majority of airline tickets in the United States and are the 
primary distributor of cruises and tour packages. A full 98 
percent of travel agencies in the U.S. meet the Small Business 
Administration definition of a small business and are 2/3 owned 
by women.
    At Safe Harbors, the past few weeks have been among the 
most difficult our agency has had since 9/11. Our clients' 
response to the current crisis ranges from business as usual 
(not many), to limiting travel to the United States, Canada, or 
to stopping business travel completely.
    Sales are down across the board. As of last week, our 2020 
sales were down 20 percent year over year. We have seen a 37 
percent decline in international travel and that is worsening 
by the day. We expect March to be devastating and are preparing 
for a 50 percent year over year decline. For April we can only 
hope. Yesterday, we laid off a significant part of our 
workforce, and still with tremendous uncertainties ahead.
    In preparation for this hearing ASTA surveyed its members 
about the impact the coronavirus is having with their business. 
Ninety percent of clients are concerned about international 
travel, while 72 percent are concerned about domestic travel. 
Ninety-eight percent of respondents expect the crisis to have a 
heavy, negative impact on the business this year. Ninety-eight 
percent also expect a negative impact on business revenues, 
with 27 percent expecting a reduction of 50 percent or more.
    If I can leave anything with you today, this is the most 
significant piece of this survey, 22 percent of respondents 
report a risk of going out of business in 3 months and 25 
percent within 6 months
    Up until last week, layoffs were in the planning stages. 
Layoffs are happening in large companies. We are large numbers 
by my company and others similar to mine. I understand some 
agencies have already shuttered their doors.
    In closing, I want to take this opportunity to provide some 
suggestions for what Congress and the Administration can do to 
help our industry during this crisis.
    Access to SBA loans. We were pleased to see that the recent 
Supplemental Appropriations Bill included funding for the SBA 
to provide about $7 billion in loans to businesses impacted by 
the outbreak. We ask they consider additional funding if the 
situation worsens and that you work with the SBA to relax some 
of the collateral requirements for these loans.
    Travel agencies are a service business and they do not have 
as many physical assets as say manufacturers. In the past, 
travel advisors were forced to put their homes up for 
collateral in order to qualify for similar loans that were 
given out after 9/11, so it is essential for these loans to be 
accessible for small businesses that desperately need them.
    Two, economic stimulus package. Please remember and include 
small businesses in any proposal for an economic stimulus 
package. Regardless of how long this crisis lasts, we feel 
strongly that the Federal government should take quick action 
on this front. Financial aid packages have been given to other 
struggling industries, and the hysteria and misinformation from 
many areas surrounded by COVID-19 that continues to plague our 
businesses show no sign of stopping.
    If the trend continues, as the members reporting continue, 
we project a loss of revenue for our industry could exceed $7.7 
billion this year alone.
    On Friday, White House economic advisor Larry Kudlow 
confirmed that the administration is considering timely and 
targeted Federal interventions to help workers, businesses, and 
industries most vulnerable economically to the outbreak. While 
it is important to include relief for our airline and cruise 
line partners in such a package, we respectfully ask that you 
consult with, and receive, travel agencies' input on any such 
package to ensure that it will help them weather the storm and 
be in a position to serve their clients once the economy 
rebounds.
    Thank you again for the opportunity to testify today, and I 
would be happy to answer any questions you may have.
    Chairwoman VELAZQUEZ. Thank you, Mr. Ellenby.
    Mr. Chau, now you are recognized.

                    STATEMENT OF ANDREW CHAU

    Mr. CHAU. Good morning, Chairwoman Representative 
Velazquez, Ranking Member Chabot, Congresswoman Chu, and 
Congressman Kim, and distinguished members of the Committee on 
Small Business. Thank you for the honor of providing testimony 
before the House Committee on Small Business, although I wish 
it were under different circumstances.
    My name is Andrew Chau, and I am here on behalf of the 
small business community, and over 20 million Asian American 
Pacific Islanders (AAPI), who call this country home. And I am 
the son of immigrants. My dad, a refugee from Guangdong, China, 
and my mother, the daughter of a Taiwanese Air Force pilot.
    I grew up 3 hours north of here in Woodbridge, New Jersey, 
where we ran the only Chinese restaurant in town. My family 
eventually moved to San Francisco, where we started another 
restaurant in Fisherman's Wharf. I am what you call a 
``restaurant brat,'' growing up around stoves, duck sauce, and 
sesame oil.
    After over a decade in Corporate America, I myself came 
back into the food business opening a chain of cafes and 
restaurants, specializing in boba milk tea and Asian-inspired 
snacks.
    My story as a small business owner is fairly common. Two 
million of the 30 million small businesses are AAPI owned. 
Small business is interwoven into our culture. Growing up as 
perennial outsiders, we sought refuge and built businesses 
across Chinatowns, Japantowns, and other ethnic enclaves 
scattered throughout the country. And even if you did not grow 
up in these enclaves, I am sure many people, including those in 
this room, have stumbled into a Chinatown noodle shop or Korean 
BBQ shop at 1 am. That was me last week.
    You can count on these establishments to be open late and 
bustling, often run by first and second-generation immigrants, 
hustling to make ends meet, chasing what was once the goal of 
every immigrant in this country, the American Dream. This dream 
and the small business culture embedded into the fabric of 
today's society is at risk today. Our community usually prides 
itself on resourcefulness, self-reliance, and grit, so it is 
telling that we are asking for assistance during this crisis.
    I am sure you have all read the news. Chinatowns and other 
AAPI enclaves across America are experiencing a drastic decline 
in patronage. A recent New York Times article said that 
business is down as much as 70 percent due to the coronavirus 
COVID-19.
    Sadly, most of this is due to misinformation and overblown 
media coverage depicting the virus as an Asian disease. This 
virus has no color. It has no ethnicity. It has no borders. 
COVID-19 is a respiratory virus, but it is fast-mutating into a 
social virus: xenophobia, Sinophobia, and marginalization of 
American citizens.
    I know this is the Committee on Small Business, but the 
negative stigma of this virus will impact our community long 
after COVID-19 is gone. We learn every day about attacks on 
AAPIs simply because of our physical appearance. But that is a 
topic for another day.
    The mission of this Committee is to protect and serve the 
interests of American small businesses. As a board member for 
National ACE, a national non-profit serving AAPI-owned 
businesses, we estimate that small businesses usually carry 
about 2 to 3 months of working capital. So, as we enter the 
third month since the news broke, many businesses, particularly 
those in these enclaves, are holding on for dear life. They do 
not have sufficient cash reserves to weather this storm. The 
economic hardship on each business owner then trickles down to 
the labor force as many are letting go of their employees to 
cut costs. The destabilization of labor and discretionary 
income will have ripple effects throughout our economy.
    In addition to influencing consumer sentiment, COVID-19 has 
also affected the global supply chain. My business uses 
ingredients from all over the world, from Japan to Taiwan to 
Thailand. Anything that is imported from overseas is delayed 
over a month or indefinitely in cases where the factories have 
shut down.
    I have heard from many people throughout the country that 
their businesses are facing similar issues. Banquets are 
canceled. Ingredients are delayed. And sole proprietorships 
like photographers, musicians, and anything tied to 
hospitality, events and entertainment are affected, too.
    We say small business is the backbone of the American 
economy, but what happens when the backbone is fractured?
    I say this on public record as a testimony not just for 
COVID-19, but for all future communicable disease that stall 
economic productivity.
    Today, the small business community, and AAPIs, we need 
help. And one day, it will be another community.
    What makes our country so unique is that we got this far 
despite our differences, and we learned how to bridge our 
various cultures and take care of each other.
    As a millennial, I hear we do not really talk about The 
American Dream anymore. As I understand it (and I had to Google 
this), the American Dream is to live a ``richer and fuller 
life, enabling opportunity according to ability and 
achievement.''
    I believe your recent disaster loan relief bill breathes 
new life to that dream. The American Dream is alive and well. I 
believe that. But we just have to remember that enabling 
opportunity is not always about opening doors; it is also 
removing barriers.
    We need more help like the loan assistance program so that 
our small businesses in our communities can thrive again. The 
loans give us enough runway to adjust to the changes in the 
marketplace, even if it is caused initially by misinformation 
and unwarranted stigma.
    We as a community are confident that your committee will 
pass other pieces of legislation to show the world that 
American small businesses embody the values that built this 
country: grit, resilience, and helping our neighbors.
    Thank you for your time.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chau.
    Dr. Huang, now you are recognized for 5 minutes.

                  STATEMENT OF YANZHONG HUANG

    Mr. HUANG. Thank you, Madam Chair, and thank you our 
Ranking Member, Mr. Chabot.
    Well, we know that the COVID-19 that originated in China, 
is continuing to spread rapidly worldwide. And if we adopted a 
WHO definition on the pandemic, it is very clear that all the 
conditions have been met to declare the outbreak a global 
pandemic. But that does not necessarily mean the virus is 
becoming more dangerous. In fact, according to the WHO, the 
case fatality rate is 3.4 percent. That very likely has been 
heavily influenced by developments in China that has more than 
83 percent of the COVID-19 deaths. If we adopted the South 
Korean data which allows us to give a more accurate and 
optimistic picture of how they saw the virus actually is, the 
mortality rate is actually just over 0.6 percent. That is close 
to the mortality rate in other parts of China. That is the 
parts of China excluding Hubei province.
    So the virus is not as lethal, virulent, as we thought. And 
with more cases being found, we expect the case fatality rate 
is going to be lower. And also, keep in mind that only 81 
percent of the cases are actually mild, and COVID-19 deaths 
also increase with age. With virus most serious affecting older 
people with preexisting health problems.
    So in that sense, this virus falls in the category of what 
we call the dread risk. That is they are high profile but post 
a lower aggregate risk to human death.
    So what is the impact of this dread risk? Well, the dread 
risks could encourage an alarmist approach that can elicit a 
disproportionate level of fear among the population that may 
distort government and public response. It can lead to cause 
for governments to undertake more aggressive actions in 
confirming cases, isolating patients and closing down close 
contacts, even though the effectiveness of these measures is 
still subject to debate and the cost of implementing these 
measures can be immensely high. That we have seen in China 
wherein they declare those implementing those measures in Wuhan 
and Hubei providence and beyond.
    Driven by panic and fear, our country is pursuing 
aggressive, domestic containment measures may also prompt other 
countries to impose stringent restrictions on travel and trade. 
That we have seen in Italy. Unjustified documentation had been 
requested from importers of Asian cheese in Greece; lettuce 
exported to Poland; fruit to Croatia, while Italian-grown 
apples refused by Ukraine.
    Many of those measures actually instituted in the outbreak 
can also be sticky. That means they are not so easy to rescind 
once they are instituted. China, for example, did not lift its 
ban on pork products from Canada until November 2009, 4 months 
after the H1N1 swine flu activity declined in most countries.
    And also, government and public responses informed by fear 
can cause huge damage toward the economy. If the COVID-19 
pandemic lasts more than a year, the CCC, Coronavirus, crude 
oil, credit shock, leads to widespread business failures, mass 
unemployment, and may lead the entire world into a global 
recession.
    So what should we do? I think it is very important that we 
adopt measures to be proportionate to the actual risk posed to 
our society. Rather than focus solely on emergency 
mobilization, it is equally important to emphasize prevention, 
precaution, and risk management by politically neutral 
professionals. In that sense, washing hands is actually more 
effective than wearing masks. Because masks, while an 
instrument of protection itself also is a symbol of panic and 
fear.
    It is also important that the U.S. consider rolling out a 
strategy that ends to slow down this rate of the virus in the 
community and minimize the economic impact of the outbreak. So 
a mitigation-based approach wherein the virus, specially become 
uncontainable, would be a preferred approach. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Dr. Huang. I'd like to 
thank all of the witnesses for their incredible and important 
information that they have shared with us.
    Mr. Chau, I would like to address my first question to you.
    I represent Chinatown, both in Brooklyn and Sunset Park. I 
have heard that discriminatory rhetoric and outright racist 
anti-Asian sentiment are a couple of the reasons business is 
down around Chinatown in my district.
    Is this something that has negatively affected your 
business in New York, and San Francisco, Los Angeles?
    Mr. CHAU. Thank you for the question, Representative 
Velazquez.
    I believe our business, for the record, has fluctuated, has 
been down in some stores, especially those located around these 
ethnic enclaves. So we have a store, I think, in your district, 
around the Lower East Side. I think that one is flat at this 
point. I think the community around us, including a lot of my 
friends, I am sure you have seen some of the New York Times 
articles, including I think my friend Wilson Tang. He runs Nom 
Wah Tea Parlor. I think there is a lot of misinformation where 
they put the face of coronavirus as Chinese restaurants or 
Chinese patrons, and that is leading to this larger scare in 
your districts as you said.
    I have seen that personally also to a lot of our places in 
L.A., in Chinatown as well. Not that we have a space, but we 
were just in Koreatown as I said earlier, and I have never seen 
Koreatown so empty. And I hear a lot from our friends who own 
these establishments, that they have also faced, I would say, 
some form of discrimination and stigma.
    Chairwoman VELAZQUEZ. Thank you.
    Dr. Bouey, you are quoted saying that we often see 
epidemics of rumors, conspiracies, and discrimination coming 
from outbreaks like this. How can we ensure that facts and 
science prevail in global health crises?
    Dr. BOUEY. Thank you.
    So I always say that where is the epidemic of disease, that 
there is always another two epidemics. That is disinformation 
and discrimination.
    So in order for us to fight all three epidemics, I think 
the facts that in the social media, in the public is very 
important. If we have the facts in the public area, you have an 
efficient risk communication plan, then we can fight the 
disinformation.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Ellenby, consumer spending is at the heart of the U.S. 
economy. How long can those small businesses in the travel and 
leisure sector survive with business conferences being canceled 
and more people staying at home?
    Mr. ELLENBY. My sector of the business is corporate travel. 
So we service corporations that travel to such events, 
conferences, and they have literally shut down everything 
certainly for March, certainly for April, and we do not see any 
kind of life at the end of the tunnel when it comes to the 
corporate side.
    When it comes to the leisure side, vacation-type travel, 
when messaging goes out about the cruises, taking cruises, not 
to take a cruise, maybe you should take a cruise, if you are 
older, younger, it is very, very difficult for any agency to 
remain in business when such messaging goes out.
    So to answer your question specifically, there are many 
agencies right now that are shutting their doors as we speak, 
and some of them will be closed within 3 to 6 months.
    Chairwoman VELAZQUEZ. Thank you.
    Dr. Huang, what is the potential impact on low-income 
households if they are forced to take long periods off work to 
contain the spread of the virus, and how can we protect their 
financial stability if they get infected?
    Mr. HUANG. Thank you.
    I think if they take sick leave for too long, then many of 
this is going to affect certainly the small businesses because 
they cannot afford doing that. Unlike the big business, they do 
not have this room to maneuver and the resources to mobilize. 
And if the large, this absenteeism continues, we expect also 
the countries, the food and fuel supply also will be affected. 
That is going to deal another blow to the economy.
    So I think it is very important that the U.S. consider a 
nationwide approach to the issue of sick leave. Maybe after 
when it is used up their sick leave, it is time for the Federal 
government to foot the bill. But in doing so, we should find an 
approach to protect both the workers and the business owners.
    Chairwoman VELAZQUEZ. Thank you. My time has expired.
    Now, we recognize the Ranking Member, Mr. Chabot.
    Mr. CHABOT. Thank you, Madam Chair.
    Dr. Huang, let me go with you first if I can.
    We know that the official Chinese data can be unreliable. 
Should this impact the global response to the virus? Do you 
take that into consideration as you are studying this? Could 
you comment on that?
    Mr. HUANG. Absolutely. I think when we are making public 
policy, it is very important that we do evidenced-based 
decision-making based on reliable, trustworthy data. So if the 
data actually shows, for example, a high mortality rate, that 
is what we found, for example, in Wuhan, that may have 
something to do with the issue of the quality of the data, but 
it also has something to do with the draconian measures that 
have been undertaken without advanced planning. So there was a 
huge probable number of deaths was caused by those draconian 
measures and the health system being overwhelmed by the huge 
demand for testing and hospitalization.
    So the WHO mortality data has been actually heavily 
influenced by the data in China because the mortality, China 
contributed to almost 3/4ths, more than 3/4s of the mortality 
worldwide. So that probably gave us this false sense, this is a 
very, very dangerous type of virus. In fact, if we top even the 
WHO mortality rate of 3.4 percent based on the current 
population, and if we adopt this prediction that 20 percent of 
the population will be infected, we are going to expect 100 
million deaths worldwide.
    Mr. CHABOT. Thank you very much.
    Dr. Bouey, I am going to go to you next, if I can.
    You had mentioned social distancing as one of the main ways 
to perhaps deal with this. Would you kind of describe in detail 
what you mean by that for anybody that may want to follow up 
with you?
    Dr. BOUEY. Sure. Social distancing in principle is 
basically separating those who are infected with those who are 
not infected. So we could see patient isolation as one of the 
typical of such policies. So as soon as someone is suspected or 
a confirmed patient, one thing they should do is be put at a 
distance with people who are healthy. So this relates to the 
hospital, how we define hospital triage, so that we know that 
the cases, infected people can be separated from those other 
people who are healthy.
    Quarantine would be an extreme measure policy on that 
because quarantine basically asks everyone, including those who 
are healthy, to stay put, not move. So between these two there 
are many variations of using protections and different type of 
policies in this line. But this is the only one, only thing we 
have now.
    Mr. CHABOT. Thank you very much.
    Mr. Ellenby, you have been in the travel agency business a 
while now. What advice would you give to those, it is pretty 
stunning what you said about 22 percent of them could literally 
be out of business within 3 months. It is very disconcerting, 
shocking. Is there any advice that you would give folk to avoid 
that?
    Mr. ELLENBY. Thank you for the question.
    Yes, I have been in the business for quite a while and have 
seen it all, I suppose. Everything from 9/11 to downturns to 
other diseases. An ASTA, the American Society or Travel 
Advisors, does a really good job in getting the word out, the 
information out, and how to address such situations. And 
unfortunately, there are very, very painful decisions you have 
to make, such as I mentioned yesterday, that we had to perform 
layoffs. And depending on the size of the company, if they have 
the ability to do that. Many of the members within ASTA do not 
have that type of workforce. And in some cases there are under 
five, maybe there are maybe one, or two, maybe three. And so it 
is very difficult for them to address those immediate expenses. 
So, labor is the critical piece.
    Mr. CHABOT. Thank you. I am almost out of time, so I want 
to get one last.
    Mr. Chau, how are you communicating with your staff, with 
your employees about what you are facing and how you are trying 
to deal with it, and I assume avoid, you know, people losing 
their jobs as much as possible? What are you telling them? What 
are you doing?
    Mr. CHAU. Thank you for your question.
    We just had a team meeting before I flew out to address 
this. I think the one thing that would help mitigate some of 
the scare is to give more information, as much as you have. So 
I recommend that for any business owner.
    So we actually had a team meeting where we said, well, here 
are the options. If the city where we are from, San Francisco, 
does go into a full quarantine, here is what would happen. And 
if not, here is what would happen if it was a partial kind of 
shutdown. And so we walked that through our managers, and we 
kind of gave them kind of a realistic idea of what could 
possibly happen. And I think they took it really well. And I 
think that is where I think a lot of small businesses across 
America should start doing that because washing hands and all 
the other preventative measures are already out there. Now we 
are just getting into scenario planning.
    Mr. CHABOT. Thank you very much. My time has expired.
    Chairwoman VELAZQUEZ. Time has expired.
    We recognize Ms. Finkenauer, Chairwoman of the Subcommittee 
on Rural Development, Agriculture, Trade, and Entrepreneurship 
from Iowa.
    Ms. FINKENAUER. Thank you, Madam Chair. I appreciate being 
here today. And thank you all for coming all this way as well. 
I know you guys have a lot of demands on your time right now. 
So it means a lot that you took this to be here.
    I am from Iowa. We actually today, we now have eight Iowans 
that have tested positive. And it is something, you know, my 
biggest concern is, obviously, the health and safety of my 
constituents and Iowans and folks across the country. I know 
our office, we have been in touch with all the hospitals in the 
district personally as well, making sure that we are keeping 
that line of communication open, hearing what people need, 
making sure that we are providing that. And I think that is one 
of the things that is going to be most important across the 
country, making sure that those lines of communication are open 
and that they are getting to the right resources.
    One of the other things that is then next on my list after 
health and safety is our economy in Iowa and across the country 
as well, and how our employers are doing as well as our 
employees who devote so much of their lives to making the world 
go around in Iowa and across the country.
    And so I was happy last week. We were able to pass the 
emergency loans, $7 billion in emergency loans that the Small 
Business Administration would be able to provide with 
businesses being affected.
    But I do have more questions for the Small Business 
Administration. I know you guys are not able to answer those, 
but I figured maybe the best way to do this would be kind of 
tell you what I want to know from them and then also how it 
would be affecting you.
    So one of the things that I want to know is making sure 
that we are getting this information out to people across the 
country and to our small businesses. And how are we ensuring 
that that is happening?
    And so, I know Mr. Chau and Mr. Ellenby, you guys are on 
the frontlines of this working with small business owners 
across the country. And what have you seen so far as the 
outreach and what could we be doing better?
    Mr. CHAU. I will make mine pretty short.
    So right now, I guess in the age of the Internet. A lot of 
the small business groups and network is online. So, I can name 
a couple that we are a part of. Prior to this hearing, I 
solicited some of the network from Asian Hustle Network. It is 
called AHN. There is another set of LinkedIn networks that we 
have. And so there are a lot of these Facebook groups that we 
have been talking about, what are you doing? So in each of 
these big metropolitan areas there are also localized versions. 
There are chamber of commerces. There are other versions of 
chamber of commerces online. So I would recommend the 
government generally tap into some of these key stakeholders, a 
part of each of these big networks, and disseminate 
information.
    Being at this hearing today I think is a major step toward 
that.
    Ms. FINKENAUER. Yeah.
    What about you, Mr. Ellenby?
    Mr. ELLENBY. Yes, thank you.
    Absolutely. The trade associations are a perfect way to get 
the information out and also solicit feedback. Certainly, 
chambers of commerce as well. So I agree with both areas.
    Ms. FINKENAUER. Great.
    And then the other thing I know, again, we passed the $7 
billion, but this is the question for the Small Business 
Administration, is how quickly can we get that out to the folks 
who need it?
    But my question for you then is how quickly do you need it? 
Yesterday, I know, but----
    Mr. ELLENBY. I would love to answer yesterday.
    Ms. FINKENAUER. Yes.
    Mr. ELLENBY. And also, I want to preface what I mentioned 
in my testimony was that easing the regulations for collateral.
    Ms. FINKENAUER. Yeah.
    Mr. ELLENBY. So I think that is a very, very careful area.
    Ms. FINKENAUER. Okay. That is helpful.
    Mr. Chau?
    Mr. CHAU. I just second that. I think we were talking 
before this that many of these small businesses are already on 
kind of their last leg on their working capital, so it has been 
months, 2 months at least for some of these businesses, so the 
sooner the better.
    Ms. FINKENAUER. Yeah. And with that I know the big thing 
for me, too, is making sure this is getting out to folks so 
that when we have employees that need to have time off, they 
are able to do it and they are able to get their paychecks. And 
it is just incredibly important, and these are the types of 
things that need to be thought about, again, all across the 
country. So I am grateful that you guys are here having those 
discussions. And I hope the Small Business Administration, I 
will be also reaching out to them with more of these questions, 
but I want to know, are they reallocating employees, making 
sure that there is more bandwidth to be able to handle these 
loans and get them out in a timely manner. And what are the 
contingency plans for all of that? So I think there is a lot we 
need to be doing, following up, making sure these are getting 
out the way that they are because I know just hearing your 
testimony today how important this is.
    So thank you for being here, and I know we all still have a 
lot more work to do. So thank you.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    I would like to share with you that yesterday, we reached 
out to the Small Business Administration. We requested for them 
to put on their website all of this information, but also, 
every state has to work with the SBA to declare that they have 
an emergency in their state, and that will open up the process.
    Now we recognize the gentleman from Oklahoma, Mr. Hern, 
Ranking Member of the Subcommittee on Economic Growth, Tax, and 
Capital Access.
    Mr. HERN. Thank you, Madam Chairwoman, Ranking Member 
Chabot, and the witnesses for being here today to talk about 
this very important issue.
    While we have had just a minimal impact in Oklahoma, I 
believe two confirmed cases now, this is still significant what 
is going on in the industry. Being in the restaurant industry 
my entire life, I have had a lot of friends who have called and 
are very concerned. And according to the American Hotel Lodging 
Association, they are estimating right now average or annual 
revenue loss within the range of $32 to $76 billion, including 
up to about $100 million per day. Occupancy rates declining to 
20 percent in major markets. At best, daily room sales decline 
around 15 percent, which result in about 15,600 fewer shifts 
available per day for room attendants. So obviously, 
significant job impacts there.
    Mr. Ellenby, given your expertise in this travel industry, 
can you talk about what you think about these effects now? And 
if you could compare the previous global--you mentioned you 
have seen it all. When you have been around the industry you 
get impacted first because people usually shut down touching, 
being around other people. Could you compare what is happening 
right now so early in this process and this coronavirus issue, 
compare it to H1N1, SARS, and all the other things that have 
gone on?
    Mr. ELLENBY. Yes. Thank you for the question.
    The comparison, it does not compare to H1N1. The only thing 
I can think it compares to is really 9/11 of all the previous 
incidents. And that was one where we literally had 3 months of 
shutdown and we started to see business pick up again in 
January. At a minimal rate. But it does not compare. This is a 
significant, significant impact. And yes, travel is often the 
leading edge. On corporate travel, certainly. We know 
oftentimes way out ahead, maybe 3 months, where the economy is 
going. And we are in the deep of it right now.
    Mr. HERN. So obviously, you have an opinion because, you 
know, when you look at deaths around the world, a single death 
is tragic, but when you compare it to what we know in Oklahoma, 
and our governor just spoke to this on Friday, that we, so far 
in this season, we have had 54 deaths from flu and thousands, 
and we have heard from CDC where we have had tens of thousands 
of people that have been infected, hundreds of thousands, 
actually. I think 350,000 hospitalized since October 1. We have 
had tens of thousands of deaths. And in the United States, we 
have had 26. What do you attribute that to? Because we are 
talking about average people and companies that are canceling 
conventions. McDonald's Corporation just canceled their largest 
convention they have every 2 years. The first time in the 
history of the company, in Orlando, where it has impacted at 
least 50,000 people traveling in for that. Why is that 
happening?
    Mr. ELLENBY. Yeah. The cancelations are through the roof. 
In fact, more of our business right now involves cancelations 
than it does actual revenue.
    The cancelations, I believe, is through information that is 
coming out from multiple sources. The media gets a hold of 
that. They put their information on that as well. And I think 
the feedback that we are getting with respect to travelers are 
if they should go someplace, they want to get back. They want 
to get back home. And they do not want to be quarantined. So 
they want to make sure that if they go someplace, they can make 
it back, and they do not know what is taking place in that 
particular destination. So I think it is the fear of the 
unknown, and so therefore, that is why they are making the 
decision to not go, and that is why companies are afraid to 
have those type of events outside the area.
    Mr. HERN. So again, I do not want to put words in your 
mouth, but having talked to many people in the industry, maybe 
it is just because of my background, that a lot of folks feel 
like there is a lot of information that is flowing around that 
while other epidemics, pandemics have been more deadly, much 
more deadly than this, there is a lot more fear being put into 
the communities that have maybe made people err on the side of 
caution much more so than in previous history.
    Mr. ELLENBY. Yes, you are putting words in mouth. That is 
exactly it. That is exactly it. It is just, there is 
inconsistent messaging. And if there was consistent messaging 
coming out of multiple departments, if there was consistent 
messaging that was approrpite, that would translate into those 
really making decisions on travel at a much more reasonable 
effort.
    Mr. HERN. Madam Chair, I will yield back the rest of my 
time. Thank you so much.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentlelady from California, Ms. Chu, Chairwoman of the 
Subcommittee on Investigations, Oversight, and Regulations is 
now recognized.
    Ms. CHU. Mr. Chau, as you have seen first-hand, Asian 
American communities across the country have been severely 
impacted by the coronavirus outbreak. In fact, I was shocked to 
find out 2 nights ago that in Los Angeles, Chinatown, one of 
the two remaining major Chinese restaurants that is capable of 
having a sit-down banquet, Ocean Seafood, is shutting down as a 
result of the sharp decline in business as a result of COVID-
19. And in my district of the San Gabriel Valley in Southern 
California, I attended a press conference in February to 
highlight the impacts of this outbreak on our local restaurants 
and businesses. That was nearly a month ago but even then, 
restaurants were reporting a decline of about 50 percent. Those 
impacts have only worsened now, and that is why it is so 
important that Congress and this Committee help those small 
businesses get the assistance that they need, and that is why I 
joined Congressmember and Chairwoman Velazquez in co-sponsoring 
the H.R. 6040, the Small Business Relief from Communicable 
Disease Act. And fortunately, key provisions of this bill were 
included in the emergency supplemental appropriations package 
that passed Congress and was signed into law last week. Now, 
small businesses impacted by COVID-19 will be eligible for SBA 
disaster loans.
    But the outbreak has resulted in more than just economic 
harm. We have also witnessed horrific instances of xenophobia 
and abuse directed towards Asian-Americans for no reason other 
than their appearance. These incidents rely on harmful stigmas 
and stereotypes that threaten to far outlive COVID-19 and have 
even been repeated by members of Congress. And in the last 
Small Business hearing, I held up a fake flyer that had the 
actual logos of the WHO and the County of Los Angeles actually 
naming five Asian businesses that people should avoid because 
of a man that they alleged had coronavirus went there.
    So as a business leader in the Asian-American community, 
could you elaborate on the types of xenophobia you have 
witnessed and discuss what we need to do about it?
    Mr. CHAU. Thank you for those comments. It is a lot to 
unpack because I think a lot of it is personal. And in the 
community, we have been talking about this a lot. 
Unfortunately, both in your district and so many of the 
districts we have our stores in, we have seen psychological 
impact. People are afraid to go out. Sometimes you cannot even 
know what is going on.
    There was a recent assault or stabbing in Brooklyn the 
other day where an Asian male was stabbed but they cannot tell 
if it was xenophobia or not because it was implied maybe but 
there are all these uncertainties. And then it is creating 
communities that are essentially playing their past issues 
against each other. And I think what we need to do first of all 
is to have better dialogue among anybody who has been 
marginalized, too. I think, number one, we need more allies.
    I think secondly, for those who are going through it, there 
already are groups that take care of each other. There is a 
group that I am on. I think it is called Crimes against Asians 
on Facebook where we actually see, and every time it is 
reported it gets amplified. And then it goes to larger media 
outlets like nextshark.com or NBC News. And that is actually 
how we funnel through the pipeline. So there is actually a lot 
of grassroots efforts. We continually need to do that, and I 
think that, as long as the messaging keeps getting out and goes 
through I would say the media outlets, we do a better job of 
storytelling and we have a better narrative.
    So unfortunately, the psychological damage is almost 
irreparable because at the same time you have a 14-year-old, I 
think, girl in L.A. recently that was also made fun of and 
assaulted. It is on the Internet and people recorded this. And 
imagine, she is 15 now. In 10 years, she is going to be 25. She 
is going to carry that with her. And then that might have her 
treat certain communities that targeted her in a different way. 
And it is just a vicious cycle. So I think we need to control 
all of that.
    Ms. CHU. And could you say how we can address the anxieties 
within the Asian-American community without compromising public 
health in the business arena, like, for instance, if your 
business had to have a worker that quarantined itself?
    Mr. ELLENBY. Yeah, I think people, we have to separate the 
data. We have to be much more data, and do the math on this, is 
that the quarantine very likely, as Dr. Huang said, that 
somebody may get it in any of our communities. And so at that 
point, we have to separate that from whoever is getting it and 
not overgeneralize a certain population. So if that does 
happen, I am sure people will take that as a precaution, but I 
just think people need to rely more on the data and use that 
versus some sensationalist media message.
    Ms. CHU. Thank you. I yield back.
    Chairwoman VELAZQUEZ. The gentleman from North Carolina, 
Mr. Bishop, is recognized for 5 minutes.
    Mr. BISHOP. Thank you, Madam Chairman.
    As I listen to the testimony and the questions, I am struck 
that we are sort of saying it can be harmful if we underreact. 
It can be harmful if we overreact. It can be harmful if we 
react with measures that have unanticipated adverse 
consequences. So it is a tricky situation that we are in.
    Mr. Chau, I am interested, did I understand that you have 
retail outlets? That is what your business is?
    Mr. CHAU. Yes, that is correct, sir.
    Mr. BISHOP. And I know that there is a great deal of 
discussion in media and among government these days of having 
workers telework.
    I assume that for a business like yours that would not be a 
viable solution; correct?
    Mr. CHAU. That is correct.
    Mr. BISHOP. Because you have got to be open. You have got 
to have retail employees who are there prepared to serve the 
public in those facilities.
    Mr. CHAU. That is correct. A lot of people, especially in 
big cities, big companies are having them working from home but 
that is very hard to do when you are retail-based.
    Mr. BISHOP. And I would imagine there are a lot of small 
businesses to whom that situation would apply then. They need 
their workers at their locations; right?
    Mr. CHAU. Yes, that is true.
    Mr. BISHOP. There was a good bit of discussion about 
allowing paid leave or maybe the government funding paid leave. 
If that were done on an indefinite basis, for example, that 
also might undermine a small business like yours, would it not?
    Mr. CHAU. That I am not really sure what the ramifications 
are. I have heard of different pros and cons of having paid 
leave. I, generally, I think, have been on the side of having--
FMLA, for example, does not cover a lot of these instances, so 
like extending that may help. In my mind, my job is to make 
sure that our workers are safe and that they are the most 
productive. And so if they are constantly worrying and not 
being their best self because they are worried about a 
paycheck, I think it actually in the long run hurts them. So I 
think having some type of security would help alleviate that.
    Mr. BISHOP. If it were available, essentially, without 
condition so that it just deterred your employees from coming 
to work, under those circumstances if you are a small business 
there might be some adverse consequence. Would you agree with 
that?
    Mr. CHAU. Yeah, I would agree that there would be some 
qualifications that would qualify for that. I think maybe----
    Mr. BISHOP. They need to be designed appropriately?
    Mr. CHAU. It has to be designed. It has to have the right 
rules. Otherwise, if you are inferring that it might get 
abused, I think that is definitely possible. I think we need to 
have the right checks and balances for a larger solution like 
that.
    Mr. BISHOP. I wonder if it is obvious to everybody the 
panel that it would be wrong and counterproductive for anybody 
to exploit the situation for political advantage by either 
provoking panic or unreasonably undermining confidence in 
public authorities' responses, or even attributing false 
motivations to public or private responses.
    What about you, Mr. Chau, would you agree with that?
    Mr. CHAU. That I do not have an opinion on. I think that 
might be a little too complicated. I am just a businessman. But 
I would like to think that people are not politically motivated 
on something that is like a public health issue.
    Mr. BISHOP. I would hope so, too. I think that is good 
enough for me.
    Thank you, Madam Chairman. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentlelady from Kansas, Ms. Davids, 
for 5 minutes.
    Ms. DAVIDS. Thank you, Chairwoman Velazquez, and Ranking 
Member Chabot for calling this hearing today.
    The first confirmed case of COVID-19 was found in the 
Kansas 3rd Congressional District which I represent, this past 
weekend. And thankfully, the person who got sick did everything 
right to help contain the spread of the disease. But even 
still, there are preventative measures that are being 
implemented in Kansas and all over the country as we have 
heard, to help mitigate and contain this novel coronavirus. 
These precautions are incredibly important for public health 
and safety and have to remain our priority.
    But we cannot overlook the impact of this epidemic on our 
economy, and especially the small businesses such as those who 
are here today and those in the district that I represent, 
which are the backbone of our communities really.
    I have already heard from small business owners in my 
district who are worried. One shared a fear that this would not 
only jeopardize her business's future but would jeopardize her 
ability to pay her bills, cover her rent, get her groceries. 
And crises like these can be especially tough on small 
businesses. Small retailers in restaurants do not have the 
teleworking options for their employees and disproportionately 
suffer when sales slow down as folks start to stay home.
    So my first question is, because this coronavirus has just 
reached Kansas's 3rd District this weekend and we expect that 
there will be more cases, no one can be sure what the full 
impact is going to look like, I want to know what you think I 
should be doing to help the small businesses prepare for the 
effects of lower sales of sick employees?
    Mr. Chau, I would like to start with you.
    Mr. CHAU. Thank you for your question.
    I think it goes back to what we have been saying. A lot of 
it has to do with communication. The bill that has passed, that 
loan assistance would definitely help in getting the right 
information to them and getting them involved if that applies 
to their business is number one.
    Number two, I think there is a lot of, I would say, 
community support. I think you are seeing right now a lot of 
communities banning together and saying I think there is a 
hashtag called Support Chinatown. So I think if that could 
happen in your district, people I think realize that, 
especially if there is not as many cases in your specific area 
and it is a little bit more of an over stigmatization and 
generalization, supporting local businesses has really been 
helping certain areas. So I think probably a campaign related 
to that helps.
    And I think third is just anything that helps, whether it 
is certain other programs that helps with financing or capital 
or just other things having rent or expenses be deferred, I 
think that is a big one. I think I have been reading some of 
the certain businesses, I think a bunch of us wanted to band 
together where we make a statement where we say to the 
landlords, please provide some relief. And just going to 
landlords directly. And I think having that come form 
legislators or parts of the government might also help because 
it still shows solidarity.
    Ms. DAVIDS. And then I would love to hear from other folks 
on the panel, when you talk about the information that I can be 
putting out, we definitely have on our website information from 
the CDC. We also have information from our local county 
governments and the state government.
    Is there any particular way that you think that our office 
should be either doing outreach or taking in information just 
from the people who are on the ground who are dealing with this 
day to day?
    Dr. BOUEY. My recommendation is that we need to understand 
when people are in doubt or having fear, the first thing that 
will harm their information is that if they have suspicious of 
the government or they do not trust the government can handle 
it. So I think the transparency is very important that whenever 
there is a case that there should be reported in time. So 
transparency is important. And the other thing is the 
competency. Right?
    So if we know that there are testing sites, there are 
treatments ready, that information needs to be ready for the 
public.
    Ms. DAVIDS. Thank you. And it sounds to me from those of 
you who have been studying this and directly feeling the 
impacts of this is that we need to make sure in our 
congressional offices that we are sharing information with 
folks, being as transparent as possible, and then those of us 
on the Committee need to makes sure that we are helping to 
support our small businesses, whether it is through programs 
and adjusting some of our loan programs and the collateral 
requirements.
    I thank you for your testimony today, and I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Now we recognize the gentleman from Florida, Mr. Spano.
    Mr. SPANO. Thank you, Madam Chair. And thank you to each of 
you for being here today. We appreciate you taking the time to 
come up and speak with us. I am sure we probably all have our 
individual examples.
    I was just at an event on Saturday, Friday maybe it was, 
where a good friend of mine I have known for a very long time, 
they own a travel business, and she was just almost, you know, 
crying about where they were at. They had a trip scheduled to 
Italy that had been canceled the day before. A trip to D.C. 
this week that thankfully had not been canceled, but the 
implications for her and her family were pretty significant. 
And this is a business where they, you know, the business is 
them, her and her husband. Right? So it really has turned 
people's lives upside down, which is incredibly unfortunate. 
But one of the questions that she had for me was that she was 
concerned about the folks who had booked trips through her 
company. They had been canceled but there was no recourse for 
them even potentially the insurance policies that they had 
purchased were not paying out because I guess, the language in 
the policy itself.
    So I would like to ask Mr. Ellenby if he could speak to 
that for just a moment. Are typical travel insurance policies 
covering this scenario?
    Mr. ELLENBY. Thank you for the question. And I am sorry to 
hear about that particular situation.
    Not all insurance policies are the same. Some do not cover 
it; some do. I do not have specifics on those particular 
programs. We can certainly provide that.
    What I can tell you is there are many suppliers who have 
become very liberal in their policies. And so working with the 
suppliers they have done a very good job in responding to any 
kind of cancelations, refunds, and working with a travel to 
support the client.
    Mr. SPANO. So what would you recommend someone do if they 
are in that specific circumstance? How do they petition, I 
guess the venue or whoever might be giving them a 
reimbursement?
    Mr. ELLENBY. In that particular case I would recommend that 
the agent friend speak with their supplier and continue to 
speak with that supplier if they do not get the correct answer. 
And I am sure the American Society of Travel Advisors could 
help out in that case as well.
    Mr. SPANO. Great. Thank you.
    And you had mentioned in response to a question a moment 
ago that the only thing you could only liken this scenario to 
is the 9/11 tragedy, and it took 3 or 4 months before things 
even began to move again. So I know it is hard to say because 
we really do not ultimately know how significant this is all 
going to play out, but what is your best guestimate? You know, 
typically, in this type of scenario, let us just say for 
example, I will give you this, let us say things begin to 
improve beginning in May or June, people begin to feel 
comfortable booking trips again. Will the travel agencies make 
up for what they have lost in part? Will people travel more 
over the summer because they have not traveled in March and 
April? Or is it just lost opportunity?
    Mr. ELLENBY. That is a great question. Thank you for asking 
that.
    You would like to think there is pent up demand. You can 
only hope there is pent up demand. But I think, I would say for 
the most part there is probably lost opportunity. There is lost 
opportunity. I doubt it is going to be made up through the rest 
of the year. Very doubtful.
    Mr. SPANO. Yeah, thank you.
    Madam Chair, I yield back the remainder of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentleman from New York, Mr. Delgado.
    Mr. DELGADO. Thank you, Chairwoman.
    I appreciate all of you being here, providing all of your 
insights.
    I wanted to sort of piggyback a little bit, Dr. Bouey, on 
some of your considerations for policymakers when it comes to 
supporting SMEs. I thought one of your takes was pretty 
interesting here. You say that SMEs could benefit from 
diversifying business platforms, online base platforms and 
virtual service provisions can help SMEs sustain business 
during quarantines or travel bans. It would be helpful if 
policymakers could bring tax breaks and technical guidance to 
help SMEs restructure their business operations.
    Can you speak a little bit more about that?
    Dr. BOUEY. Sure. So the data we got from China, some of 
these are surveys given to SMEs. Some of those are ecommerce 
data that it collected. And it shows that definitely overall 
retail are hurt but it is not all even. So the business that 
has a virtual store, during the quarantine and travel ban, 
those are hurt most. But at the same time, people are buying 
groceries or even meals and certainly other supplies through 
online vendors.
    And then in China, we also see that the shops that have no 
servers shop or even a vending machine which has been here for 
a long time but in China it is actually a new phenomenon. But 
we see that all of these machines and human-free shops are 
getting more traffic, becoming more popular.
    So online education, online entertainment, and online gyms, 
those are also seeing an increase in traffic.
    So one idea is that would it be helpful for a business to 
have both a physical shop as well as an online shop, a virtual 
center that at least can help the business to keep contact with 
their potential customers or maintain some loyalty of the 
customers.
    I know some businessmen in China, during the downtime, they 
even send free videos to their customers and help entertain 
their kids because the kids are home and have nowhere to go. 
But these are the very innovative ways to help the business.
    Mr. DELGADO. And I am assuming, and please correct me if I 
am wrong, that you have not encountered any examples of those 
types of approaches being incentivized within the SBA; right? 
There is nothing you have come across that would speak to this 
specific issue?
    Dr. BOUEY. No.
    Mr. DELGADO. Right. Okay. So that is definitely something I 
think we might want to look into. I would imagine that some of 
the low interest loans, too, if they were tied to sort of 
incentivizing----
    Dr. BOUEY. Innovation.
    Mr. DELGADO.--to diversity in this way could be quite 
helpful.
    Dr. Huang, I just want to also bring you into this 
conversation because I think a the end of the tail end of your 
testimony you said that, you noted that the targets alone are 
helpful but you also said the U.S. government may consider 
following the example of Italy to provide tax cuts and credits 
for small businesses.
    Could you speak specifically to what you might have in mind 
when it comes to credits?
    Mr. HUANG. Thank you. That is a very specific question.
    I think in terms of the credits, I think they could be 
taking just different forms. It could be a tax credit to those 
who have been suffering during the outbreak. It could also be 
like the forms like difference of the payment that we have seen 
also in the case of China. But----
    Mr. DELGADO. Let me help you out. I think I have an idea. I 
think maybe we can do a tax credit for those companies that 
look into diversifying their platforms. I think that could be 
one way in which we are able to help facilitate this. I think 
that obviously trying to go about this with a clear eye and a 
deep politicized fashion is going to be of utmost importance.
    I just want to again thank each and every one of you for 
your insights. It is very much appreciated.
    And with that I yield back. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize Mr. Schneider, from Illinois.
    Mr. SCHNEIDER. Thank you, Madam Chair. I want to thank you 
and the Ranking Member for having this meeting. I want to thank 
the witnesses for joining us today and sharing your 
perspectives, your experiences.
    We are dealing with a crisis. There is no question about 
that. It is being dealt with at all levels--in our local 
communities, at the state level, here in the Federal 
government.
    Mr. Chau and Mr. Ellenby, you were literally at the 
frontlines dealing with this in your businesses. And I think 
one of the greatest challenges we face, especially as 
policymakers here in Congress, is trying to find the path to 
help you short term how to deal with the immediate impacts it 
is having on your business.
    Mr. Ellenby, you said you laid off a third of your 
workforce?
    Mr. ELLENBY. Not a third but we laid off a significant 
amount.
    Mr. SCHNEIDER. But there are going to intermediate and 
long-term impacts on this, and I think, Dr. Bouey, others have 
talked about this, the transition from trying to contain to now 
mitigating the consequences of this. And that is why I am 
pleased that in the House last week we initiated, and we passed 
$8.3 billion. It passed the Senate. It was signed by the 
President. That was a big step to move forward to help the 
people at the frontlines. We need to continue with that.
    In my state, in Illinois, our Governor Pritzker issued a 
disaster declaration yesterday for the state. This allows the 
state to access those emergency funds, and I suspect we will 
see more of that.
    I also think in speaking to my colleagues, it is important 
for us to be the public face, to make sure that we are 
communicating with our constituents, keeping them informed at 
all levels.
    Someone else mentioned the challenge we face because every 
action we take will have counteractions. And so we want to make 
sure what we do is in the right direction and that we are 
flexible to respond and make decisions today that will have 
consequences to underly and support our decisions tomorrow.
    But there are also things I think we can do that model 
behavior. The no-touch screening, whether it is the Mr. Spock, 
may we all live long and prosper, or it is elbow bumps, there 
are things we can do. Washing our hands, singing Happy Birthday 
twice as we wash our hands. Changing just general hygiene. It 
sounds simple but that is a big step to try to mitigate the 
impact of all of this, including disinfecting services, 
desktops, phones, et cetera.
    And let me just advise everyone. If you do not feel well, 
please stay home for all of us. It is critical.
    But as people stay home, it is hard, and I think this is 
one of the things that we talked about. Whether it is 
unfortunate layoffs or just go home for a couple of weeks, we 
need to make sure that we are providing two levels I think of 
support.
    One is the level of income continuity, whether that is paid 
leave, making sure that those who, whether they are working in 
a restaurant, a retail store, travel industry, manufacturing, 
that if they are not able to go to work, if they are not able 
to get their paycheck, we are ensuring that they have the 
resources to feed their families, to pay their bills, to not 
lose their housing. That is crucial.
    The second piece that I think we need to be thinking about, 
and we have talked some about this with the small business 
loans, is make sure businesses like yours have the capital to 
ensure continuity.
    Mr. Ellenby, I do not know if this is going to be a few 
weeks, a few months, or take us, someone said this may extend 
into 2021. That is going to be real challenges. And for you it 
is not just managing your business but managing what hopefully 
as you said, the pent up demand, as customers come back, we 
want to make sure that our businesses are there for those 
customers and that they are healthy and that employees can come 
here.
    We passed the bill last week. Legislation designated the 
coronavirus as a disaster which opened up the Small Business 
Administration's Disaster Loan Program. This is critical. But 
we need to continue to stay focused and be thinking about what 
is our next step? This is a long-term play. We need to be 
thinking not just next week but next month and the month after 
and policy. So I thank you.
    I have now left only a minute for questions. But I will 
open the question. Mr. Chau and Mr. Ellenby, what other ideas 
as you have sat here, as you have thought about it, are there 
other things we can be doing to help small businesses like 
yours?
    Mr. ELLENBY. I will be very quick.
    One of the things, our membership of ASTA, my company 
itself, we do provide paid sick time and we do provide health 
insurance. But there are many smaller companies who do not. 
They do not have paid sick time. And that is going to be a very 
big issue so that really needs to be considered in any kind of 
loans and stimulus.
    Mr. SCHNEIDER. Mr. Chau, 14 seconds.
    Mr. CHAU. I am going to echo that. Actually, I will just 
echo that. I think that has been a big topic. Just, especially 
with a lot of part-time workforce, the income continuity is 
going to be the big thing. And as an augmented workforce 
becomes normal, we have to figure that out just as a society.
    Mr. SCHNEIDER. Great. Thank you.
    And with the 2 seconds I will steal over my time. The idea 
of how do we move forward in this crisis is critical but 
learning the lessons so we are better prepared for the next 
crisis is just as critical. I commend you for offering that 
paid time off and sick time and health insurance. Everyone in 
this country should have that.
    And with that I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now we recognize the gentleman from New York, Mr. 
Espaillat.
    Mr. ESPAILLAT. Thank you, Madam Chair. Mr. Ranker.
    I am really concerned about the way small businesses are 
being treated in this crisis, because testing as of yet has 
been very limited. So as we increase significantly testing 
across the country, maybe to a degree that you can even go to a 
local pharmacy and get a test kit, the numbers are just going 
to go right through the roof. And this will create a long-term 
crisis for small businesses.
    We saved the banks. We saved Detroit. Now the White House 
is proposing to save the cruise industry and the travel 
industry. And yet we want to saddle small businesses with 
loans. And I support that with zero percent loans, but 
nevertheless, we want to saddle them with debt. And they will 
be shaken up by this crisis and then they will have a looming 
debt at the end of this process, Madam Chairwoman.
    New York City is offering not only loans but grants up to 
$6,000 to those businesses that witness a 25 percent drop in 
business.
    The empowerment zones offered a tax credit to businesses of 
$3,000 per employer that hire local. I am proposing that we 
offer a tax credit for businesses that have witnessed a 25 
percent drop in business and that retain those workers.
    In addition to that, I think that we could give grants for, 
for example, the installation of smart energy equipment in 
small businesses that will result in a dramatic drop of 30 to 
50 percent of energy costs. That is money in your pocket. That 
is help.
    The rest is saddling you up with debt. I do not see how 
that is helpful. It may be helpful now, but it will cripple you 
tomorrow. So I think that we have not helped small businesses 
the way we should, the way we have helped other parts of the 
economy while small businesses are the biggest employers in the 
country. So we worry more about the banks when we had the 
meltdown on Wall Street. We worry more about Detroit when we 
had the near destruction of the auto industry. And now we are 
worrying about cruisers and the travel industry, and we are 
leaving you guys behind because all we have given you is debt. 
And debt may be zero percent, but debt is debt and debt is bad, 
especially if you are weak economically and you cannot make 
ends meet.
    So my proposal, I want to hear from all of you as to what I 
am proposing. There is a model out there already. Do you 
support a tax credit for those businesses that have witnessed a 
drop of 25 percent in business and have retained their local 
workers? Because this is also about communities. And do you 
support grants to do the renovation of smart energy equipment 
that will not only lead to a better environment than cleaner 
energy but also to a 30 to 50 percent drop in your energy 
bills? Anybody?
    Mr. ELLENBY. Yes, yes, and yes.
    So yes, we could agree to every one of those items. And I 
would like to offer, I will be very quick so everyone else can 
speak, we may have some additional ideas from our trade 
association that could help you as well.
    Mr. ESPAILLAT. We would love to hear from you those ideas. 
You are on the ground. You can tell us what can make it work 
for you. But at the end of the day it has to be in your pocket.
    Mr. ELLENBY. Yes.
    Mr. ESPAILLAT. Do not bring me to another breakfast for a 
loan that I am not going to qualify for, because if you need a 
loan, you probably have shabby credit. You know, you are not 
able to meet payroll, or you do not have capital to expand. If 
you have good credit and you meet payroll and you have money on 
the side, the bank comes to you. You do not need to go to the 
bank. So if you have additional ideas, I would love to hear 
them.
    Mr. ELLENBY. Thank you.
    Mr. ESPAILLAT. Anybody else? Doctor?
    Mr. HUANG. Yeah, certainly, I would support that idea. I 
think policymakers will not make a choice between maximum 
protection and minimum disruption. Actually, it is always about 
balancing the draconian containment measures including 
aggressive testing against the impacts on the economy and 
society. We have seen the countries like South Korea, Italy 
also, why are they taking aggressive testing measures of seeing 
the actual number, significant increase of the number of the 
confirmed cases, but in time they are also very keenly aware of 
how they should minimize the damage this could cause to the 
economy.
    Mr. ESPAILLAT. Thank you.
    Mr. HUANG. Thank you.
    Mr. ESPAILLAT. Thank you, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Mr. Ellenby, you mentioned that you were working in the 
travel industry back during 9/11; right? I would like for you 
to go back and check, besides the Disaster Loan Program that we 
had in place back then and that we included in this bill, and 
see if there were any other provisions that were part of that 
9/11 package that you believe were effective in helping the 
businesses that you represent, and get back to us.
    Mr. ELLENBY. I would be happy to do so. Thank you.
    Chairwoman VELAZQUEZ. Thank you.
    We want to thank all of the witnesses for taking time out 
of their schedules to be with us today. I would like to thank 
all of the witnesses for educating us on the potential economic 
and public health impacts of the coronavirus. Moving forward, 
it is our priority to do whatever we can to help those small 
businesses that will disproportionately suffer economic harm. 
We must also realize this is a public issue as well, and I 
encourage everyone to plan, prepare, and to not panic. Common 
sense measures, like washing your hands and seeking medical 
care if you are experiencing flu-like symptoms will go a long 
way, and our federal government will play an important role as 
well.
    Dr. Bouey, I heard you when you said it is important that 
people have faith in the information that they get from our 
government; otherwise, we are going to defeat any purpose.
    I urge colleagues on both sides of the aisle and the 
administration to work together on a coordinated government-
wide plan to respond to the coronavirus.
    With that, I will ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 1:03 p.m., the Committee was adjourned.]
    [Dr. Jennifer Huang Bouey wished not to respond to 
questions from Hon. Troy Balderson]
                           
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
